             Office of Inspector General




March 20, 2006

ELLIS A. BURGOYNE
VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – AM Standard Operating Procedures – Fiscal Year
         2005 Financial Installation Audit (Report Number FF-AR-06-096)

This report summarizes the results of our review of AM Standard Operating
Procedures (SOP) performed in conjunction with our fiscal year (FY) 2005
(Project Number 06BO010FF000) financial installation audits of post offices,
stations, and branches. We performed this work at the request of U.S. Postal
Service Headquarters.

                                           RESULTS IN BRIEF

At 28 of the 36 post offices, stations, and branches where AM SOP applied,1
management had begun implementing the AM SOP. Of those, 11 had obtained
certification, and 17 were at various stages of becoming certified. At the time of
our work, eight units had not begun implementation. Several factors contributed
to units not being certified. These factors included issues with the mail arrival
agreement with the processing and distribution plant, posting and following the
AM SOP, and Function 4 activities.

                  OBJECTIVE, SCOPE, AND METHODOLOGY

Our overall audit objective was to give Postal Service Headquarters information
on the status of AM SOP implementation and certification.

To accomplish this objective, we performed fieldwork during FY 2005 in
conjunction with our statistically selected sample of 92 post offices, stations, and
branches, and three post offices outside of our statistical sample (see
Appendix A for a list of the units and project numbers). We did not review AM
SOP implementation and certification for 51 units that did not have city letter
carriers and eight units that did not use the Delivery Operations Information
System (DOIS). The audits performed at these units were unannounced.



1
 AM SOP applied to 36 of the 95 post offices we visited during our FY 2005 financial installation audits. Our
FY 2005 financial installation audits consisted of a statistically selected sample of 92 post offices, stations,
and branches and 3 post offices outside the statistical sample.
AM Standard Operating Procedures –                                                     FF-AR-06-096
 Fiscal Year 2005 Financial Installation Audit


In FY 2005, when we conducted our work, the former vice president, Delivery
and Retail, issued a memorandum2 to the field outlining the criteria for becoming
an AM SOP-certified site. Certification requires achieving two performance
indicators3 and a score of 95 percent or higher on the revised AM SOP
Certification Audit. We were asked to consider only whether a unit had achieved
the minimum score of 95 percent or better on the certification audit scorecard.
Therefore, in this report, we refer to certification when a unit achieved the
third element – a score of 95 percent or better on the district’s certification audit.

We verified whether a plant agreement was in place and a current SOP was
posted. We asked management whether or not the carriers followed the SOP.
We reviewed applicable documentation to verify whether post offices complied
with requirements for mail volume and arrival, dispatch times, and scheduled
reporting times for carriers. Finally, we observed the post office’s carrier casing
configuration and the design of the workroom floor and discussed the status of
the AM SOP with unit management.

We conducted this audit from October 2004 through March 2006. We discussed
our observations and conclusions with management officials and included their
comments where appropriate. We issued individual reports to management at
each unit.

                                PRIOR AUDIT COVERAGE
The U.S. Postal Service Office of Inspector General has issued the following
reports on AM SOP and delivery operations:

    •    City Letter Carrier Operations – Chicago District (Report Number
         DR-AR-05-019, September 29, 2005); Santa Ana District (Report Number
         DR-AR-05-013, August 8, 2005); San Diego District (Report Number
         DR-AR-05-014, August 8, 2005); Rio Grande District (Report Number
         DR-AR-05-009, December 2, 2004). The four reports outlined
         opportunities to improve the management of city letter carrier operations in
         each district. Specifically, delivery facility supervisors and managers did
         not adequately match workhours with workload. We also noted that
         supervisors and managers did not always view DOIS reports in a timely
         manner to manage operations; consistently use managed service points to
         monitor city letter carriers’ street time to correct negative trends; or

2
  Vice president, Delivery and Retail, memorandum to managers, Delivery Programs Support (Area),
Subject: AM SOP update, January 25, 2005.
3
  The criteria for achieving the performance indicators were as follows: (1) Carriers returning by 1700 – for
offices ending FY 2004 above 82 percent, the goal was 88 percent; for offices ending FY 2004 below
82 percent, the goal was to improve by 1/3 of the difference between the percentage at the end of FY 2004
and 100 percent; and (2) Total efficiency indicator (TEI) performance - Each office had to meet or exceed
the same period last year TEI. These two indicators had to be achieved 3 out of 4 weeks concurrently, and
achieving 95 percent or higher on the certification audit must have occurred within a 4-week period
immediately, prior to, or subsequent to achieving the two performance indicators.


                                                      2
AM Standard Operating Procedures –                                                      FF-AR-06-096
 Fiscal Year 2005 Financial Installation Audit


         properly document letter carriers’ unauthorized overtime and take
         corrective action. We agreed with headquarters delivery management to
         unrecoverable costs of $5,664,713 for the four districts.

    •    City Letter Carrier Office Preparation in the Dallas District (Report Number
         DR-AR-04-005, July 26, 2004). The audit showed that the Dallas District
         could improve city letter carriers’ office preparation. Specifically, delivery
         supervisors and managers could not adequately match workhours with
         workload. In addition, city letter carriers’ work activities did not always
         ensure that they departed the delivery unit as scheduled. Further,
         supervisors and managers did not use DOIS to help manage office
         activities.

                                               RESULTS
At most units, delivery operations managers and supervisors had begun
implementing the AM SOP to create consistency and standardization among city
delivery carriers. As shown in the table below, management at 28 of the 36 units
had begun the AM SOP implementation. Of the 28 units, 11 had obtained
certification and 17 had not yet been certified. At the time of our work, eight units
had not begun implementation.

                          Status of AM SOP at Units Visited
        Status: 4                                           Number of units
        Begun implementation:
           Obtained certification 5                            11
           Not yet certified                                   17
               Subtotal                                                    28

        Not begun implementation                                                                          8
        Total                                                                                            36

Observations at Units Not Yet Certified

Several factors contributed to units not yet being certified. We grouped these
into three main categories.

The first category of factors is the mail arrival agreement with the processing and
distribution plant. In this category, four units did not have contracts with the
plants; mail arrived late at three units; two units did not have a method for
reporting or resolving discrepancies; and dispatch transportation arrival was late
at five units.

4
 Appendix A shows the status of AM SOP implementation and certification at each unit.
5
 We defined a unit that had obtained certification as one that scored 95 percent or higher on the district’s
certification audit.


                                                       3
AM Standard Operating Procedures –                                FF-AR-06-096
 Fiscal Year 2005 Financial Installation Audit



The second category concerns the AM SOP. In this category, three units did not
post the AM SOP; at two units, the AM SOP was not placed in the route books;
and carriers did not follow the AM SOP at two units.

The third category covers Function 4 distribution operations. In this category,
two units were not properly configured; at one unit, the clerks’ starting times
coincided with the carriers’ dispatch times; and at one unit, the supervisor did not
have a clear line of sight to the carriers.

Appendix B gives detailed information for each unit that had not yet been certified
at the time of our work.

Management agreed with the information contained in this report. Management’s
comments, in their entirety, are included in Appendix C.

We appreciate the cooperation and courtesies provided by your staff during the
audit. If you have any questions or need additional information, please contact
Linda Libician-Welch, director, Field Financial - West, or me at (703) 248-2300.

    E-Signed by John Cihota
 ERIFY authenticity with ApproveI




John E. Cihota
Deputy Assistant Inspector General
 for Financial Operations

Attachments

cc: Robert D. Williamson
    James Kiser
    Donald R. Ryalls
    Philip F. Knoll
    Steven R. Phelps




                                                 4
   AM Standard Operating Procedures –                                               FF-AR-06-096
    Fiscal Year 2005 Financial Installation Audit


                                              APPENDIX A

             AM STANDARD OPERATING PROCEDURE STATUS
   This appendix shows the status of AM SOP implementation and certification at the time of our
   audits.

                                                                                    Had Not Begun
                                                          Begun                     Implementation
                                                      Implementation

Post Office/                                                                    Planned
Project Number                                      Certifi     Not Yet         Date to    No Planned
                                District             ed         Certified        Begin    Date to Begin
Southside
                                                      X
05XD001FF046                    Richmond
Mebane
                                                      X
05XD001FF076                    Greensboro
Vincentown                      South
                                                      X
05XD001FF084                    Jersey
Champaign                       Central
                                                      X
05XD001FF027                    Illinois
Wanamaker Branch                Greater
                                                      X
05XD001FF091                    Indiana
Manistee                        Greater
                                                      X
05XD001FF078                    Michigan
Linden Main Office
                                                      X
05XD001FF011                    New Jersey
North Side Station
                                                      X
05XD001FF001                    Alabama
Brookhaven Station
                                                      X
05XD001FF002                    Atlanta
East Point Station
                                                      X
05XD001FF023                    Atlanta
Ocala                           North
                                                      X
05XD001FF017                    Florida
                          6
Bergenfield Main Office
                                                                    X
05XD001FF009                    New Jersey
                  7
East Greenbush
                                                                    X
05XD001FF086                    Albany
New Haven Main Office8
                                                                    X
05XD001FF053                    Connecticut
Farmingdale Main Post
Office9                                                             X
05XD001FF082                    Long Island


   6
     Unit managers did not know whether the unit had completed certification.
   7
     Unit could not provide documentation for certification.
   8
     Unit was in the process of obtaining final certification
   9
     Unit could not provide documentation for certification.


                                                          5
    AM Standard Operating Procedures –                                     FF-AR-06-096
     Fiscal Year 2005 Financial Installation Audit




                                                                           Had Not Begun
                                             Begun Implementation          Implementation


                                                                     Planned
Post Office/                                             Not Yet     Date to      No Planned
Project Number            District           Certified   Certified    Begin      Date to Begin
Thousand Oaks
Main Post Office                                            X
05XD001FF059              Van Nuys
Apalachicola
                                                            X
05XD001FF025              North Florida
Ludlam Branch             South
                                                            X
05XD001FF026              Florida
Punta Gorda
                                                            X
05XD001FF064              Suncoast
Bonham Main Post
OfficeC                                                     X
05XD001FF018              Dallas
Highlands Ranch           Colorado/
                                                            X
05XD001FF031              Wyoming
New York Main
Office                                                      X
05XD001FF085              New York
Canandaigua               Western
                                                            X
05XD001FF077              New York
Centereach Main
Post Office                                                 X
05XD001FF052              Long Island
Westwood Main
Post Office               Northern                          X
05XD001FF066              New Jersey
Los Angeles Main
Post Office                                                 X
05XD001FF089              Los Angeles
Placerville
                                                            X
05XD001FF047              Sacramento
Eastside Station
                                                            X
05XD001FF043              Louisiana
Wheaton Branch
                                                                       X
05XD001FF005              Capital
Hope Mills Post
Office                    Mid-                                         X
05XD001FF062              Carolinas




                                                     6
    AM Standard Operating Procedures –                                       FF-AR-06-096
     Fiscal Year 2005 Financial Installation Audit



                                                                             Had Not Begun
                                             Begun Implementation            Implementation


                                                                      Planned
Post Office/                                              Not Yet     Date to       No Planned
Project Number            District           Certified    Certified    Begin       Date to Begin
Pontiac Main Post
Office                    Southeast                                     X
05XD001FF044              Michigan
San Carlos Main
Post Office               San                                           X
05XD001FF041              Francisco
Ripley
                                                                        X
05XD001FF067              Tennessee
Austin Downtown
Station                                                                 X
05XD001FF029              Rio Grande
Rice Lake
                                                                        X
05XD001FF050              Northland
Plainville
                                                                                            X
05XD001FF081              Connecticut
Total                                            11          17          7                  1




                                                      7
                AM Standard Operating Procedures –                                             FF-AR-06-096
                 Fiscal Year 2005 Financial Installation Audit




                                             APPENDIX B
                           DETAILED INFORMATION FOR UNITS NOT YET CERTIFIED

                               Mail Agreement With Plant                             AM SOP                   Function 4

                                                                                                                   Clerk
                                Late        No Standard                                                            and       No
                  No            Mail         Method for        Transpor-                              Unit Not    Carrier   Clear
                Contract       Arrival      Reporting or         tation              Not in     Not   Properly     Start    Line
                 With            at          Resolving          Arrived     Not      Route     Fol-   Config-      Time      of
Post Office      Plant         Plant       Discrepancies          Late     Posted    Book     lowed     ured     Coincide   Sight
New York
                      X           X                               X
Main Office
Bergenfield                                                                  X
East
                                                                             X
Greenbush
New Haven
Main Office10
Farmingdale
Main Post
Office
Canandaigua           X
Thousand
Oaks Main                         X                               X
Post Office
Apalachicola
11

Ludlam
                                                                                       X
Branch



                10
                     We did not obtain detailed information.
                11
                     We did not obtain detailed information.




                                                                                 8
              AM Standard Operating Procedures –                                             FF-AR-06-096
               Fiscal Year 2005 Financial Installation Audit




                             Mail Agreement With Plant                             AM SOP                   Function 4

                                                                                                                 Clerk
                              Late        No Standard                                                            and       No
                No            Mail         Method for        Transpor-                              Unit Not    Carrier   Clear
              Contract       Arrival      Reporting or         tation              Not in     Not   Properly     Start    Line
Post Office    With            at          Resolving          Arrived     Not      Route     Fol-   Config-      Time      of
               Plant         Plant       Discrepancies          Late     Posted    Book     lowed     ured     Coincide   Sight
Punta Gorda                                                      X
Bonham
Highlands
                                                                X                                                 X
Ranch
Centereach
Main Post                                       X                                            X
Office
Westwood
Main Post                                                                                              X                   X
Office
Los Angeles
Main Post           X           X               X               X          X         X       X
Office
Placerville         X                                                                                  X
Eastside
Station12
Total               4            3               2              5          3         2        2        2          1        1




              12
                   We did not obtain detailed information.




                                                                               9
AM Standard Operating Procedures –                    FF-AR-06-096
 Fiscal Year 2005 Financial Installation Audit


                APPENDIX C. MANAGEMENT’S COMMENTS




                                                 10
